                                          ASSISTANT INSPECTOR GENERAL’S REPORT

U.S. Department of Labor                     Office of Inspector General
                                                  Washington, D.C. 20210




                       ASSISTANT INSPECTOR GENERAL’S REPORT

TO THE HONORABLE                                       eral Financial Statements. These standards
ELAINE L. CHAO                                         require that we plan and perform the audit to
SECRETARY OF LABOR                                     obtain reasonable assurance about whether
                                                       the financial statements are free of material
The Chief Financial Officers Act of 1990               misstatements. An audit includes examining,
(CFO Act) requires agencies to report annu-            on a test basis, evidence supporting the
ally to Congress on their financial status and         amounts and disclosures in the financial state-
any other information needed to fairly present         ments. An audit also includes assessing the
the agencies’ financial position and results of        accounting principles used and significant
operations. To meet the CFO Act reporting              estimates made by management, as well as
requirements, the United States Department of          evaluating the overall financial statement
Labor (DOL), a Department of the United                presentation. We believe that our audit pro-
States Government, prepares annual financial           vides a reasonable basis for our opinion.
statements, which we audit.
                                                       RELATIONSHIP TO THE
The objective of our audit is to express an            SINGLE AUDIT ACT
opinion on the fair presentation of DOL’s
Fiscal Year 2000 principal financial state-            The financial statements for the year ended
ments. Our objective also is to obtain an              September 30, 2000, include:
understanding of the Department’s internal
control and test compliance with laws and              •   costs for grants, subsidies, and contribu-
regulations that could have a direct and mate-             tions primarily with various state and local
rial effect on the financial statements.                   governments and nonprofit organizations in
                                                           the amount of $8.1 billion;
We have audited the consolidated balance
sheet of the DOL as of September 30, 2000,             •   costs for unemployment benefits incurred
and the consolidated statements of net cost,               by state employment security agencies in
changes in net position, budgetary resources,              the amount of $21.1 billion;
financing, and custodial activity for the year
then ended. These financial statements are             •   state employer tax revenue of $19.7
the responsibility of the DOL’s management.                billion;
Our responsibility is to express an opinion on
these financial statements based on our audit.         •   net receivables for state unemployment
We conducted our audit in accordance with                  taxes, reimbursable employers and benefit
auditing standards generally accepted in the               overpayments of $.7 billion; and
United States; the standards applicable to
financial statements contained in Government           •   reimbursements from state, local, and
Auditing Standards, issued by the                          nonprofit reimbursable employers in the
Comptroller General of the United States; and              amount of $1.0 billion, for unemployment
Office of Management and Budget (OMB)                      benefits paid on their behalf.
Bulletin 01-02, Audit Requirements for Fed-

OIG Report No. 22-01-013-13-001                                                                Page 1.1
Our audit included testing these costs, financ-        Financial Performance Report are required by
ing sources, and balances at the Federal level         the Federal Accounting Standards Advisory
only. Pursuant to a mandate by Congress, the           Board. We have applied certain limited proce-
examination of these transactions below the            dures, which consisted principally of inquiries
Federal level is primarily performed by various        of management regarding the methods of
auditors in accordance with the Single Audit           measurement and presentation of the informa-
Act of 1984, as amended, and OMB Circular              tion. However, we did not audit the informa-
A-133. The results of those audits are re-             tion and express no opinion on it.
ported to each Federal agency which provides
direct grants, and each Federal agency is              The information in the appendices of the
responsible for resolving findings for its             DOL’s Performance and Accountability Re-
awards.                                                port is presented for purposes of additional
                                                       analysis. Such information has not been
OPINION ON FINANCIAL                                   subjected to the auditing procedures applied in
STATEMENTS                                             the audits of the consolidated financial state-
                                                       ments and, accordingly, we express no opinion
In our opinion the financial statements referred       on it.
to above present fairly, in all material re-
spects, in conformity with generally                   REPORT ON INTERNAL CONTROL
accepted accounting principles:
                                                       In planning and performing our audit, we con-
•   the assets, liabilities, and net position of the   sidered the Department’s internal control over
    Department of Labor as of               Sep-       financial reporting by obtaining an understand-
    tember 30, 2000; and                               ing of the Department’s internal control, deter-
                                                       mined whether internal controls had been
•   the net cost, changes in net position,             placed in operation, assessed control risk, and
    budgetary resources, reconciliation of net         performed tests of controls in order to deter-
    cost to budgetary resources, and                   mine our auditing procedures for the purpose
    custodial activity for the year ended              of expressing our opinion on the financial
    September 30, 2000.                                statements. We limited our internal control
                                                       testing to those controls necessary to achieve
OTHER ACCOMPANYING                                     the objectives described in OMB Bulletin 01-
INFORMATION                                            02. We did not test all internal controls rele-
                                                       vant to operating objectives as broadly defined
Our audit was conducted for the purpose of             by the Federal Managers’ Financial Integrity
forming an opinion on the FY 2000 principal            Act of 1982, such as those controls relevant to
financial statements of the DOL. The accom-            ensuring efficient operations. The objective of
panying financial information discussed below          our audit was not to provide assurance on
is not a required part of the principal financial      internal control. Consequently, we do not
statements:                                            provide an opinion on internal control.

The required supplementary information (in-            Our consideration of the internal control over
cluded in the FY 2000 Annual Performance               financial reporting would not necessarily dis-
Report and in the Management of DOL’s                  close all matters in the internal control over
Financial Resources and Required Supplemen-            financial reporting that might be reportable
tary Information sections of the Financial             conditions. Under standards issued by the
Performance Report) and the Required Sup-              American Institute of Certified Public Ac-
plementary Stewardship Information of the              countants, reportable conditions are matters

Page 1.2                                                              OIG Report No. 22-01-013-13-001
                                             ASSISTANT INSPECTOR GENERAL’S REPORT

coming to our attention relating to significant      ion on such controls. However, we noted
deficiencies in the design or operation of the       certain deficiencies in internal control over
internal control that, in our judgment, could        reported performance measures, discussed
adversely affect the agency’s ability to record,     below that, in our judgment, could adversely
process, summarize, and report financial data        affect the agency’s ability to collect, process,
consistent with the assertions by management         record, and summarize performance informa-
in the financial statements. Material weak-          tion and report performance measures in
nesses are reportable conditions in which the        accordance with management’s criteria.
design or operation of one or more of the
internal control components does not reduce to       REPORTABLE CONDITIONS
a relatively low level the risk that misstate-
ments in amounts that would be material in           Current Year Reportable Conditions
relation to the financial statements being au-
dited may occur and not be detected within a         Unreconciled Differences with Treasury
timely period by employees in the normal
course of performing their assigned functions.       The Department continues to have unrecon-
Because of inherent limitations in internal          ciled cash differences between the DOLAR$
controls, misstatements, losses, or noncompli-       general ledger and Treasury. Although the
ance may nevertheless occur and not be de-           unreconciled differences are not material to
tected. We noted certain matters, discussed in       the financial statements, they amounted to
the following paragraphs, involving the internal     over $44 million at year-end. The most seri-
control and its operations that we consider to       ous reconciliation problems exist in ETA,
be reportable conditions. However, none of           where approximately $7.8 billion in grant pay-
the reportable conditions is believed to be a        ments were made through the Department of
material weakness.                                   Health and Human Services’ Payment Man-
                                                     agement System (HHS-PMS). ETA did not
In addition, we considered the DOL’s internal        perform reconciliations at the appropriation
control over Required Supplementary Stew-            level throughout FY 2000 (where HHS-PMS
ardship Information by obtaining an under-           activity is reported). At year-end, ETA had
standing of the agency’s internal controls,          $13 million of net unreconciled differences at
determining whether they had been placed in          the appropriation level.
operation, assessed control risk, and
performed tests of controls as required by           In addition, ineffective reconciliation proce-
OMB Bulletin 01-02. The objective of our             dures resulted in $31 million of the $44 million
audit was not to provide assurance on these          year-end cash adjustment related to payroll
internal controls. Accordingly, we do not            activity. We also found $10.6 million of sus-
provide an opinion on such controls.                 pended payroll transactions that had been
                                                     outstanding for more than 90 days. Because
Finally, with respect to internal control relating   these amounts have not been identified and
to performance measures included in the FY           cleared, one or more appropriation accounts
2000 Annual Performance Report, we ob-               are misstated.
tained an understanding of the design of signif-
icant internal controls relating to the existence    We recommend that the Chief Financial
and completeness assertions as required by           Officer ensures that: 1) agencies identify
OMB Bulletin 01-02. Our procedures were              and clear differences at the document
not designed to provide assurance on internal        level at least monthly; 2) reconciliation
control over reported performance measures,          procedures effectively address depart-
and, accordingly, we do not provide an opin-         mental funds processed through non-DOL

OIG Report No. 22-01-013-13-001                                                               Page 1.3
ALCs (e.g., HHS, USDA, Treasury, etc.);             subsequently corrected but were not corrected
3) reconciliation worksheets are prepared           in DOLAR$; and transactions that suspended
in compliance with Treasury and OCFO                during the PMS/DOLAR$ interface that were
guidance; and 4) the resolution of differ-          not properly recorded when cleared from
ences is adequately supported by source             suspense, or remained suspended. These
documentation.                                      events indicated systemic problems that affect
                                                    all granting agencies using PMS. Accordingly,
The Department agrees that cash reconcilia-         it is critical that ETA initiate a reconciliation
tions are necessary and must be performed on        process for their PMS grants to ensure that
a monthly, if not daily, basis. The OCFO has        each grant document recorded in DOLAR$
formed a task force to address cash reconcili-      accurately reflects a complete record of pay-
ations Department-wide. This task force will        ments made to the grantee. It is also critical
ensure that all agencies, including the OCFO,       that ETA reconcile grant obligations to ensure
comply with the Treasury directive on recon-        that obligational authority released in PMS is
ciling Funds with Treasury balances. Also, the      accurate and in agreement with DOLAR$.
OCFO will work with the grant agencies and
HHS to refine the reports to facilitate reconcil-   Differences between PMS and DOLAR$
ing the Department’s records with HHS’              payment activity can also indicate that
records.                                            DOLAR$ Funds with Treasury accounts are
                                                    not in balance with the Treasury’s TFS 6653.
DOLAR$ Grant Transactions Not Recon-                We reported in a separate finding that there
ciled to HHS-PMS                                    are unreconciled differences in the Funds with
                                                    Treasury account for ETA’s appropriations,
ETA uses the HHS-PMS to process grant               totaling approximately $13.5 million. These
payments for the majority of their grants (ap-      differences were calculated by management
proximately $7.8 billion in FY 2000). Accord-       but were not identified or corrected to the
ingly, PMS is the initial system of record for      respective grant documents. Rather, adjust-
grant payment transactions and it is essential      ments were recorded to unrelated documents
that all PMS transactions are accurately re-        set up specifically for this purpose.
corded in the DOLAR$ general ledger, and
that the two systems reconcile.                     We recommend that the Chief Financial
                                                    Officer and the Assistant Secretary for
Our audit disclosed that ETA does not recon-        Employment and Training ensure that
cile PMS transactions, by document, to those        ETA implement policies requiring routine
recorded in DOLAR$. Significant differences         reconciliations of grant transactions re-
exist in obligation and payment amounts re-         corded in DOLAR$ to those recorded in
corded on the two systems for ETA’s grants.         PMS. We also recommend that the Chief
                                                    Financial Officer ensures that changes are
Other DOL granting agencies performed               made to DOLAR$ and/or the Sync Report
detailed reconciliations of PMS and DOLAR$          so that the report provides a more useful
activity during FY 2000, and noted events that      and reliable tool for management.
caused DOLAR$ to be misstated. For exam-
ple, they noted PMS transactions that were          ETA agreed that DOLAR$ and the HHS-
posted twice in DOLAR$; an entire quarter of        PMS system should be in agreement and
costs that was recorded on PMS but not on           periodically reconciled to validate that they are
DOLAR$; selected days of payment activity           in agreement. The OCFO agreed to work
that were recorded on PMS but not on                with the grant agencies and HHS to refine
DOLAR$; PMS system errors which PMS                 existing reports as well as develop new re-

Page 1.4                                                            OIG Report No. 22-01-013-13-001
                                           ASSISTANT INSPECTOR GENERAL’S REPORT

ports to facilitate reconciling the Department’s   costs and payments. These        documents
records with HHS’ records.                         reflected more costs than payments, and ac-
                                                   tual grant costs were reduced in order to
ETA Obligations Inappropriately Moved to           balance the grant. Had the closeout process
Subsequent Fiscal Year                             been performed more timely, ETA would have
                                                   had the time to notify the grantees to draw
We analyzed selected documents which re-           down the funds so that the grants would be in
flected large differences in payment activity      balance, rather than reducing costs and obliga-
between DOLAR$ and PMS grant activity,             tions to an incorrect amount.
and noted several 1993 JTPA grants where a
portion of the obligation, cost and payment        We recommend that the Chief Financial
activity had been moved from one fiscal year       Officer and the Assistant Secretary for
to the next. According to ETA, these grants        Employment and Training ensure that
were closed (and the funds had expired) prior      ETA establish controls (including written
to the grantee drawing down their final pay-       policies and procedures) which will en-
ment. To close the grants, ETA reduced             sure that adjustments to obligations for
obligations and costs in DOLAR$ to equal the       closed accounts are posted only to cur-
total payments recorded (in DOLAR$) at the         rent year appropriations and are properly
time. When the grantee subsequently drew           authorized by the head of the agency when
the funds from PMS (on the 1993 grant), ETA        the amount of the adjustments exceeds
set up a 1994 grant obligation in DOLAR$ so        the dollar threshold established in the
that the system would accept the draw down.        regulations.
As a result, PMS reflects the final payment
totaling over $4.5 million as an FY 1993 obli-     ETA is considering actions to be taken to
gation, cost and payment but DOLAR$ re-            alleviate this concern. A decision will be
flects this as an FY 1994 obligation, cost and     made on a course of action to be taken and
payment.                                           the action will be implemented during the
                                                   fourth quarter of FY 2001.
These practices are not in compliance with
appropriation law (U.S.C. Title 31, Chapter 15,    State Unemployment Benefit Payments
Sections 1552 and 1553). Appropriation law         Understated
allows adjustments to closed years, however,
the adjustments must be made to the current        ETA did not perform routine and timely rec-
year (in this case FY 2000). In addition, ad-      onciliations of state drawdowns reported on
justments exceeding $4 million require ap-         ETA form 2112 and drawdowns reported by
proval from the head of the agency. ETA            Treasury. As a result, state advances were
inappropriately recorded the adjustments to        overstated and benefit expenses were under-
FY 1994 rather than FY 2000 and did not            stated in the Department’s fiscal year ended
receive the proper approvals. In addition,         September 30, 1999 financial statements. Net
ETA did not have the proper obligating docu-       benefit expenses continued to be recorded and
mentation to support the FY 1994 obliga-           used to adjust gross advances during FY 2000.
tion.                                              During FY 2000, the OCFO reconciled state
                                                   reported drawdowns to Treasury reported
This situation was caused by the fact that         drawdowns. As a result of this reconciliation,
grants were not appropriately or timely closed     it was found that starting in January 1999, a
for FY 1993. ETA waited until the funds            number of states underreported unemployment
canceled and adjusted the documents so that        benefit payments. During the FY 2000 year
the documents were in balance for obligations,     end financial statement process, advances and

OIG Report No. 22-01-013-13-001                                                           Page 1.5
benefit expense balances were adjusted by           quest state reconciliation of all benefits re-
$288 million and $403 million for FY 1999 and       ported. The OCFO will include procedures in
FY 2000, respectively.                              their compilation guide to be followed in case
                                                    the FMRS reconciliation fails which will in-
In the publication Standards for Internal Con-      clude analytical procedures to be used to
trol in the Federal Government, the General         examine the state data.
Accounting Office describes control activities
as policies, procedures, techniques, and mech-      Prior Year Reportable Conditions
anisms that enforce management’s directives.
They include a wide range of diverse activities     EDP Controls
such as approvals, authorizations, verifications,
reconciliations . . . . [Emphasis added.]           DOL Needs to Strengthen Controls to Pro-
                                                    tect Its Information
Transactions should be promptly recorded to
maintain their relevance and value to manage-       DOL's systems environment is exposed to
ment in controlling operations and making           various weaknesses in management's proce-
decisions. This applies to the entire process or    dures for assessing risks, implementing an
life cycle of a transaction or event from the       effective security framework, periodically
initiation and authorization through its final      monitoring its framework, timely resolving
classification in summary records. In addition,     issues identified or reported upon, and effec-
control activities help to ensure that all trans-   tively implementing and maintaining its access
actions are completely and accurately re-           controls.
corded.
                                                    The Department has taken several key steps
We recommend that the Chief Financial               in strengthening its information systems secu-
Officer and the Assistant Secretary for             rity architecture during the last year. Specifi-
Employment and Training ensure that: 1)             cally, the Department has issued its Critical
Reconciliations using FMRS and Trea-                Infrastructure Protection Plan (CIPP), the
sury data are performed timely and in-              DOL Cyber Security Program Plan and the
clude comparisons of drawdowns for state            Computer Security Handbook (CSH). The
benefits in addition to drawdowns for               CSH is to provide direction and guidance for
Federal benefits; 2) ETA monitors the               the agencies to complete system security plans
reconciliation process on a quarterly basis         and risk assessments for those systems identi-
and provides the OCFO status reports on             fied as critical assets, major applications or
the results of the reconciliations; 3)              general support systems in the Department’s
OCFO documents procedures used to                   CIPP. The Department is working with the
verify that state reported data recorded in         agencies to strengthen the Department’s
DOLAR$ through the FMRS is accurate;                information systems architecture by providing
and 4) OCFO evaluates analytical proce-             training and guidance.
dures used to verify state UI advance,
accounts payable, and benefit expense               DOL Needs to Fully Implement a Systems
data entering DOLAR$.                               Development Life Cycle Methodology

ETA will issue instructions to the states on        Changes to DOL’s systems were not properly
proper reporting of benefit payments, monitor       controlled in the areas of software change
and follow up on state reconciliations of           management, software file access and system
FMRS and Treasury data quarterly, provide           documentation. The Department has issued
the OCFO quarterly status reports, and re-          its Systems Development Life Cycle (SDLC)

Page 1.6                                                           OIG Report No. 22-01-013-13-001
                                             ASSISTANT INSPECTOR GENERAL’S REPORT

Manual and agencies are updating systems to
comply with the manual. The SDLC serves
as the mechanism to ensure that developing,
modifying, or enhancing systems meet estab-          Accounting for Grants
lished user requirements and support DOL
critical success factors.                            Grant accounting has the following      defi-
                                                     ciencies:
DOL Needs to Complete and Fully Test Its
Plan(s) for Maintaining Continuity of Op-            •   Transfers of JTPA funds between pro-
erations                                                 grams were not monitored by ETA for
                                                         compliance with the regulations, and were
DOL has several weaknesses that would                    not accounted for in ETA’s accounting
impair the Department’s ability to effectively           records.
respond to a disruption in business operations       •   We continued to note unsupported adjust-
as a result of a disaster or another event caus-         ments recorded for ETA’s grants and
ing an extended service interruption. The                contracts.
general areas where weaknesses were noted            •   We continued to note delinquent grantee
are in risk assessments that have not been               cost reporting and untimely recording of
finalized and contingency planning.                      costs for ETA’s grants and contracts.
                                                     •   ETA does not have sufficient procedures
The Department has established a multi-year              for identifying and correcting grant ac-
strategy and program management plan for its             counting errors on a timely basis.
Continuity of Operations (COOP). As articu-          •   ETA does not have written grant account-
lated in the COOP, the Department must have              ing procedures.
a viable capability that ensures: the emergency      •   Grant accruals were not recorded on a
delegation of authority; safekeeping of vital            periodic basis, rather, they were recorded
resources, facilities, and records; improvisation        at year end only.
or emergency acquisition of the resources            •   OSHA was not consistently reconciling
necessary for business resumption; capability            grant transactions processed by PMS.
to perform work at alternate work sites until
normal operations are resumed; and the ability       Management is in the process of completing a
to be operational at alternate facilities, with or   new grant cost system that will resolve several
without warning within a specified amount of         of the cost reporting issues and has agreed
time after activation.                               that there is a need to reconcile PMS and
                                                     DOLAR$ transactions.
Additionally, the Department must also have a
Continuity of Government (COG) Plan for              Wage and Hour’s Back Wage System
discharging its role in maintaining the integrity
of critical constitutional functions of the Gov-     As we have noted for several years, the Wage
ernment in the event of a threat to national         and Hour Division (WHD) does not maintain
security. Also, the Department issued guid-          sufficient control over information recorded in
ance to the agencies to address service conti-       the back wage subsidiary system (Back Wage
nuity in its Computer Security Handbook.             Collection and Disbursement System -
                                                     BCDS), and certain policies and practices
                                                     exercised by the regional offices preclude the
                                                     use of this system as a reliable subsidiary for
                                                     back wages.


OIG Report No. 22-01-013-13-001                                                             Page 1.7
In FY 2000, management took steps to im-          ment. A verification process has been piloted
prove the financial accounting for back wages     and full implementation is planned in FY 2001.
with the design and implementation of a new
system, the BCDS 2000. Nonetheless, sig-                           —————
nificant misstatements in both accounts receiv-   We noted other matters involving the internal
able and cash balances still existed at year-     control and its operations that will be re-
end.                                              ported to the management of DOL in a sepa-
                                                  rate letter.
Management is continuing to add functions,
improvements, and oversight to the BCDS           REPORT ON COMPLIANCE WITH
2000 system on a quarterly basis. The effects     LAWS AND REGULATIONS
will be assessed in the FY 2001 audit.
                                                  The management of the DOL is responsible
Wage and Hour’s Civil Monetary Penalty            for complying with laws and regulations appli-
(CMP) System                                      cable to the Department. As part of obtaining
                                                  reasonable assurance about whether the De-
In our FY 1993 audit, we recommended that         partment’s financial statements are free of
WHD install a CMP tracking system which           material misstatement, we performed tests of
would function as a subsidiary for CMP activ-     its compliance with certain provisions of laws
ity and related receivable balances.              and regulations, noncompliance with which
                                                  could have a direct and material effect on the
In FY 2000, we noted improvements in the          determination of financial statement amounts
documentation supporting computed assess-         and certain laws and regulations specified in
ments and accounts receivable balances.           OMB Bulletin 01-02, including the require-
However, system weaknesses continue to            ments referred to in the Federal Financial
exist in the areas of transaction cutoff, the     Management Improvement Act of 1996
accounting period close out process and effec-    (FFMIA). We limited our tests of compliance
tive controls ensuring that recorded informa-     to these provisions and we did not test compli-
tion is accurate, complete and therefore reli-    ance with all laws and regulations applicable to
able. Furthermore, there has been a lack of       the DOL.
effective implementation of applicable ac-
counting standards with respect to the record-    The results of our tests of compliance with the
ing of revenues as of the date the claim be-      laws and regulations described in the preced-
came valid and enforceable pursuant to            ing paragraph, exclusive of FFMIA, disclosed
SFFAS 7 and the proper recording of interest      instances of noncompliance with the following
charges.                                          laws and regulations that are required to be
                                                  reported under Government Auditing Stan-
Management is in the process of redesigning       dards and OMB Bulletin 01-02, which are
portions of the CMP system and adding over-       described below.
sight procedures. The effects will be assessed
in the FY 2001 audit.                             Adjustment to Grant Obligations

Performance Measures                              Our FY 2000 audit disclosed that ETA re-
                                                  duced FY 1993 grant obligations and moved
We previously reported the need for the Un-       these funds into FY 1994, which was not in
employment Insurance Service to verify the        accordance with appropriation law. While
accuracy of non-Federal entity data reported      appropriation law allows adjustments to closed
to DOL and used for performance measure-

Page 1.8                                                         OIG Report No. 22-01-013-13-001
                                            ASSISTANT INSPECTOR GENERAL’S REPORT

years, the adjustment must be made to the          Our FY 1999 audit reported that five subsid-
current year (in this case FY 2000).               iary DOL financial management systems did
                                                   not substantially comply with one or more of
                                                   the three requirements discussed in the pre-
                                                   ceding paragraph.

Debt Management

ESA is not in substantial compliance with the
Debt Collection Improvement Act of 1996.
Delinquent receivables for Back Wages, Civil
Monetary Penalties and the Black Lung Dis-
ability Trust Fund were not submitted to Trea-
sury, or were not submitted timely, as required
by the Act.

Grant Closeout Process

JTPA grants were not closed out in
accordance with applicable regulations and
departmental policy. While ETA has im-
proved the grant closeout processes, there is
still a large backlog of grants and contracts
which need to be closed and the JTPA close-
out process remains untimely.

For laws and regulations tested, exclusive of
FFMIA, that are required to be reported under
Government Auditing Standards or OMB
Bulletin 01-02, our tests of compliance dis-
closed no instances of noncompliance other
than those mentioned in the preceding para-
graph.

COMPLIANCE WITH FFMIA

Under FFMIA, we are required to report
whether the Department’s financial manage-
ment systems substantially comply with the
Federal financial management systems
requirements, applicable Federal accounting
standards, and the United States Government
Standard General Ledger (SGL) at the trans-
action level. To meet this requirement, we
performed tests of compliance with FFMIA
section 803 (a) requirements.



OIG Report No. 22-01-013-13-001                                                          Page 1.9
The results of the current year audit disclosed
that two systems remain in noncompliance:

C   Wage and Hour’s Back Wage system,
    and
C   Wage and Hour’s Civil Monetary
    Penalty (CMP) system.

The Back Wage and CMP systems are not in
substantial compliance with the requirements
of OMB Circular A-127, and the CMP system
is also not in substantial compliance with appli-
cable Federal accounting standards.

Management expects the implementation of a
new Back Wage system and the redesign of
portions of the CMP system, which should
bring the systems into FFMIA compliance, to
be completed during FY 2001.

Providing an opinion on compliance with cer-
tain provisions of laws and regulations was not
an objective of our audit and, accordingly, we
do not express such an opinion.

                —————

This report is intended solely for the informa-
tion and use of the management of the U.S.
Department of Labor, the Office of Manage-
ment and Budget, and Congress and is not
intended to be and should not be used by any-
one other than these specified parties.



JOHN J. GETEK
Assistant Inspector General for Audit

February 15, 2001




Page 1.10                                           OIG Report No. 22-01-013-13-001
